               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




            Click-N-Ship For Business

                       Audit Report




                                              April 29, 2013

Report Number DP-AR-13-005
                                                                          April 29, 2013

                                                           Click-N-Ship For Business

                                                        Report Number DP-AR-13-005




BACKGROUND:
The U.S. Postal Service established a        Business users with about 39,000 active
business shipping application called the     users (who used the application at least
Shipping Assistant in May 2003. In April     once a month). Also, in fiscal year 2012,
2012 the Postal Service renamed the          customers created over 7.3 million
application Click-N-Ship For Business,       Click-N-Ship For Business mailing
which is free software available to          labels with revenue of about $55 million.
Postal Service business customers. The
Postal Service Digital Media group is        Our objective was to determine whether
responsible for managing Click-N-Ship        the Postal Service implemented controls
For Business.                                to protect revenue associated with the
                                             Click-N-Ship For Business application.
Customers download Click-N-Ship For
Business from usps.com and register to       WHAT THE OIG FOUND:
use the software. Click-N-Ship For           The Postal Service did not implement
Business enables customers to create         sufficient controls to protect
and print bar coded mailing labels for a     revenue associated with the Click-N-
variety of domestic and international        Ship For Business application.
shipping services and customs forms for
foreign shipments.




The application also offers seamless         As a result, we identified about
integration with digital postal meters and   $7 million of annual revenue loss to the
a customer’s address book and allows         Postal Service.
customers to import mailing data from
other external accounts such as eBay.        WHAT THE OIG RECOMMENDED:
In addition, the application provides
access to usps.com® service and price
comparisons, delivery time estimates,
and address verification tools.

As of September 2012, there were             Link to review the entire report
866,000 registered Click-N-Ship For
April 29, 2013

MEMORANDUM FOR:             GARY C. REBLIN
                            VICE PRESIDENT, DOMESTIC PRODUCTS




FROM:                       Darrell E. Benjamin, Jr.
                            Deputy Assistant Inspector General
                             for Revenue and Performance

SUBJECT:                    Audit Report – Click-N-Ship For Business
                            (Report Number DP-AR-13-005)

This report presents the results of our audit of the U.S. Postal Service’s Click-N-Ship
For Business® application (Project Number 13BG007DP000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Kevin H. Ellenberger, director,
Data Analysis and Performance, or me at 703-248-2100.

Attachments

cc: Nagisa Manabe
    Corporate Audit and Response Management
Click-N-Ship For Business                                                                                          DP-AR-13-005




                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Revenue Protection Controls .......................................................................................... 1

Recommendation ............................................................................................................ 4

Management’s Comments .............................................................................................. 4

Evaluation of Management’s Comments ......................................................................... 4

Appendix A: Additional Information ................................................................................. 6

   Background ................................................................................................................. 6

   Objective, Scope, and Methodology ............................................................................ 6

   Prior Audit Coverage ................................................................................................... 7

Appendix B: Monetary Impact ......................................................................................... 8

Appendix C: Management's Comments .......................................................................... 9
Click-N-Ship For Business                                                                        DP-AR-13-005




Introduction

This report presents the results of our audit of the U.S. Postal Service's Click-N-Ship
For Business® (CNSB) application (Project Number 13BG007DP000). Our objective
was to determine whether the Postal Service implemented controls to protect revenue
associated with the CNSB application. This audit was self-initiated and addresses
financial risk. See Appendix A for additional information about this audit.

CNSB is free desktop software available to any business that ships with the
Postal Service. Customers download CNSB from usps.com and register to use the
application. CNSB combines labels and package management operations in one
automated application. CNSB includes the ability to create and print bar coded mailing
labels for domestic and international shipping services and customs forms for foreign
shipments. This mailing label is similar in appearance to pre-paid mailing labels
generated from other Postal Service products1.

The application also offers seamless integration that allows customers to pay for
postage using the Pitney-Bowes Mailstation 2™ digital postal meter2 and an address
book, and allows them to import data from other external accounts such as eBay®. In
addition, the application provides access to usps.com where customers can compare
Postal Service services and prices, obtain delivery time estimates, and access address
verification tools. There were 866,000 registered CNSB users with about 39,000 active
users (those who had used the application at least once a month as of September
2012). CNSB customers created over 7.3 million CNSB mailing labels with revenue of
about $55 million in fiscal year (FY) 2012.

Conclusion

The Postal Service did not implement sufficient controls to protect revenue associated
with the CNSB application.

                                                                                  Without
adequate controls                                                                    the
Postal Service is at risk of losing revenue. As a result, we identified annual revenue loss
of about $7 million for the Postal Service.

Revenue Protection Controls




1
  Examples include Click-N-Ship and PC Postage providers such as Endicia, Stamps.com, or Pitney-Bowes, Inc.
2
  All-purpose meter for low-volume mailing needs. All-in-one digital mailing system with built-in scale.
3
  Customers can enter a request for a carrier to pick up their package the following delivery day.
                                                            1
Click-N-Ship For Business                                                       DP-AR-13-005




CNSB customers created over 7.3 million labels and generated revenue of about
$55 million in FY 2012. Table 1 provides a breakdown of CNSB label revenue and
volume during FYs 2010 through 2012.

                              Table 1. CNSB Revenue and Volume

                                   CNSB Label Revenue      CNSB Label Volume
           Fiscal Year                (in millions)           (in millions)
               2012                                $54.6                       7.3
               2011                                $55.0                       7.3
               2010                                $55.3                       7.6
     Source: Postal Service Digital Media Group.




                                                   2
Click-N-Ship For Business                                                                            DP-AR-13-005



Other U.S. Postal Service Office of Inspector General (OIG) audit reports4 have shown
there is little risk of detecting packages mailed with short paid and unpaid postage.
These audits identified over $243.2 million in revenue loss resulting from short paid and
unpaid postage. These audits also reported that Postal Service personnel did not
effectively detect packages without the required postage affixed.


Management stated that the purpose of the CNSB application is to provide a mailing
label product
           Management referenced a Usability Study Research Summary5 issued
September 28, 2012, and a Postal Service CNSB customer survey conducted
October through November 2012 that found that business customers prefer to use the
CNSB desktop application to print mailing labels
                                     However, allowing customers to do this causes the
Postal Service to lose about $7 million of revenue annually.

During our audit, management acknowledged that the current process presents the
potential for lost revenue. Management also recognizes that changing the current
process aligns with customer desires. Specifically, results from the 2012 Postal Service
CNSB customer survey show that only 33 percent of business customers currently use




The Postal Service is considering making changes to address customer needs.
Specifically, the Postal Service is developing a new mailing label application for
business customers who prefer to pay for postage with a credit card, which would
potentially reduce revenue loss.




                                                                                                        Shortpaid
Postage Information-Based Indicia Parcel Post Mail (Report Number MS-AR-09-002, October 14, 2008), Shortpaid
Postage Information-Based Indicia Priority Mail (Report Number MS-AR-09-001, October 10, 2008).
5
  AKQA is an ideas and innovation company specializing in creating digital services, products, communications, and
experiences. Prepared by Mediabarn User Experience Lab, September 28, 2012.


                                                         3
Click-N-Ship For Business                                                       DP-AR-13-005




Recommendation

We recommend the vice president, Domestic Products:




Management’s Comments

Management agreed with the intent of the recommendation and will work toward
addressing the issues raised in this report, as well as those expressed by their
customers. Specifically, management stated they will:

   Develop a strategy to end the
                                                 The estimated completion date for this is
    October 1, 2013.

   Work toward more                                                               The
    estimated completion date for this is April 1, 2014.

   Research the amount of customer demand there is for
                                                             The estimated completion
    date for this is October 1, 2014.

See Appendix C for management’s comments in their entirety.

In a subsequent email, management disagreed with our monetary impact. They stated
that the OIG calculation, based on a similar finding reported in 2008, is inconclusive,
given Postal Services’ ongoing efforts to protect revenue and its commitment to further
strengthen revenue controls by researching and developing additional improvements.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation and
corrective actions should resolve the issues identified in the report.

Regarding the disagreement with our monetary impact, we believe that our conclusions
are valid. The referenced prior OIG report disclosed that Postal Service personnel did
not

Accordingly, we developed a methodology to estimate the amount of revenue loss and
to reflect a fair and reasonable comparison to the prior audit. We obtained the
percentage of mailpieces                                        from the Origin Destinating
Information System – Revenue, Pieces, and Weight. We multiplied the annual revenue
amount of CNSB by this percentage to estimate annual revenue loss. Further, the audit
team conducted a test sample of eight packages


                                             4
Click-N-Ship For Business                                                  DP-AR-13-005




                                           . Therefore, we conclude that the current
CNSB process places the Postal Service at risk of losing revenue.




                                          5
Click-N-Ship For Business                                                                            DP-AR-13-005



                                 Appendix A: Additional Information

Background

The Postal Service develops, markets, and manages retail business segments to
maximize revenue by improving and expanding access to and products for consumers
and small business. The Postal Service Digital Media Group is responsible for
developing and managing the desktop application known as CNSB.

The Postal Service began the Shipping Assistant® software application concept in
May 2003 and re-named it CNSB in April 2012. This desktop mailing label application is
targeted to customers who have a meter or frequently have a large number of packages
to ship. Customers can download the application from usps.com free of charge and it
currently has more than 866,000 registered customers, with about 39,000 active users
(who used the application at least once a month), creating over 7 million shipping labels
per year with annual revenue of about $55 million.

In addition to domestic and international shipping labels, CNSB offers customers other
services that support Postal Service shipping, such as address standardization,
domestic and international rate calculation and comparison, track and confirm, customs
forms creation, and the ability to schedule next day Carrier Pickup. CNSB provides
customers with an address book, shipping cart, detailed shipping history, and the ability
to set default values for commonly used functionality. Customers who use CNSB
mailing labels are eligible for the electronic confirmation rate, with no additional fees, on
Priority Mail, First-Class Mail® parcels, Package Services parcels, and Parcel Select
parcels, which differ from those offered at retail for similar services.


                      . Integrated payment options within CNSB are limited to those
typically associated with larger mailers, such as electronic Verification System6 and
permit imprint.7 Based on Postal Service customer surveys conducted, CNSB
customers stated that there needs to be an easier, integrated way


Objective, Scope, and Methodology

Our objective was to determine whether the Postal Service implemented controls to
protect revenue associated with the CNSB application.

To accomplish our objective, we:

   Reviewed user guides, CNSB websites, and related controls of the CNSB
    application to determine potential risks.

6
  A manifest mailing system that streamlines the acceptance of parcels and integrates with the Product Tracking
System for package tracking and service performance.
7
  Most of the time Permit Indicia will contain the words ‘Permit No.’ and the mail class of the mailpiece.


                                                         6
Click-N-Ship For Business                                                        DP-AR-13-005




   Discussed the functionality of the CNSB application with Postal Service
    management,


   Tested the CNSB application by downloading and registering as Postal Service
    business customers


   Reviewed the draft Business Case Overview for CNSB with Scan Pay dated
    October 18, 2012, to determine whether the proposal contains a payment for
    postage enhancement for the customer.

   Obtained Postal Service revenue and volume reports for CNSB.

We conducted this performance audit from October 2012 through April 2013 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on March 14, 2013, and included their
comments where appropriate.

To conduct this audit, we relied on computer-processed data maintained by
Postal Service operational systems. We did not test the validity of controls over these
systems; however, we verified the accuracy of the data by confirming our analysis and
results with Postal Service managers and other postal data sources. We determined
that the data were sufficiently reliable for the purposes of this report.

Prior Audit Coverage

The OIG did not identify any prior audits or reviews related to the objective of this audit.




                                              7
Click-N-Ship For Business                                                                               DP-AR-13-005



                                      Appendix B: Monetary Impact

           Recommendation                      Impact Category                              Amount
                 1                      Revenue Loss8                                     $20,507,473

Revenue Loss

To determine the amount of revenue loss to the Postal Service,
                                                         and multiplied it by the total
revenue amounts for FYs 2012 through 2014. The actual CNSB revenue amount for
FY 2012 was $54.6 million and the estimated CNSB revenue amounts for FYs 2013 and
2014 are $54.6 and $62.8 million, respectively, as shown in Table 2. The table also
illustrates the Postal Service's revenue loss calculation, which includes 1 fiscal year of
actual revenue and 2 fiscal years of projected revenue for the CNSB application,



                                Table 2. Calculation of Revenue Loss

                                                               FY 2012           FY 2013              FY 2014
                   Description                                 (actual)        (projected)          (projected)
    Total CNSB Revenue                                    $54,570,906          $54,570,906          $62,756,542
                                                                                                          11.93%
    Estimated Annual Revenue Loss                          $6,510,309           $6,510,309           $7,486,855
    Total Estimated Revenue Loss                                                                    $20,507,473
    Estimated Annual Revenue Loss                                                                    $6,835,824

Results from a 2008 OIG audit report9 indicated that 11.93 percent of mailpieces
                      Since our audit identified an issue similar to one reported in our
2008 audit, we used the same percentage to estimate the revenue loss for CNSB.
Using the total CNSB revenue amounts for FYs 2012 through 2014 and multiplying that
amount by 11.93 percent, we estimated revenue loss for the 3 years to be $20.5 million,
or about $7 million annually.




8
  Amount the Postal Service is (or was) entitled to receive but was underpaid or did not realize because policies,
procedures, agreements, requirements, or good business practices were insufficient or not followed. May be
recoverable or unrecoverable and may apply to historical events or a future period (in the sense perceived future
losses may be prevented by the implementation of a recommendation).
9
  Click-N-Ship Program (Report Number MS-AR-08-004, dated March 31, 2008).


                                                           8
Click-N-Ship For Business                                       DP-AR-13-005



                            Appendix C: Management's Comments




                                            9
Click-N-Ship For Business        DP-AR-13-005




                            10
